TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Voucher Audit of the Infrastructure
                    Shared Services Task Order of Contract
                              TIRNO-99-D-00001



                                             June 2006

                              Reference Number: 2006-10-087




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 15, 2006


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Voucher Audit of the Infrastructure Shared
                              Services Task Order of Contract TIRNO-99-D-00001
                              (Audit # 200510034)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 Infrastructure Shared Services Task Order of Contract TIRNO-99-D-00001. The overall
 objective of this review was to determine whether selected vouchers submitted and paid under
 the Infrastructure Shared Services task order1 of contract TIRNO-99-D-00001 were appropriate
 and in accordance with the contract’s terms and conditions.

 Synopsis
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 We initiated this audit to determine whether the vouchers submitted by the contractor and paid
 by the IRS were accurate, supported, and allowable.
 Our review resulted in the identification of questionable charges of $8,187.49. The questionable
 charges consisted of unallowable labor and travel charges, unallowable indirect costs and fee,
 and unsupported travel charges.
 The Treasury Inspector General for Tax Administration Office of Audit Information Systems
 Programs staff performed a companion audit of this contract’s deliverables to determine whether
 the IRS was receiving full value from the contractor. In a recently issued final report, the


 1
   This task order was designed to provide support that encompassed the building and delivery of the common,
 integrated, and shared infrastructure for the Business Systems Modernization program.
                 Voucher Audit of the Infrastructure Shared Services Task Order
                                  of Contract TIRNO-99-D-00001



Information Systems Programs audit staff reported that the IRS did not receive the anticipated
value for 7 of 27 work items and 2 of 11 special projects performed under this contract.2

Recommendations
We recommended the Director, Procurement, ensure the appropriate Contracting Officer reviews
the identified questionable charges of $8,187.49 and initiates any recovery actions deemed
warranted. In addition, the Director, Procurement, should consider initiating the following
actions due to the identification of duplicate billing of labor hours and travel charges in excess of
per diem rates:
    •   Review a representative sample of previously submitted task order vouchers to determine
        whether any additional unallowable charges can be identified and recovered.
    •   Require the contractor to consistently provide travel summary documentation, as
        evidenced during this audit, with future vouchers to facilitate a more comprehensive
        review of those vouchers.

Response
IRS management agreed with our recommendations. The Office of Procurement will document
the audit findings and issue them to the contractor for a response. Upon agreement from the
contractor, unallowable amounts will be deducted from current billings, or a credit will be
established. If the contractor provides additional information, or disagrees with the audit
findings, a next course of action will be determined. In addition, the Office of Procurement will
review an additional voucher sample to determine the existence of questionable labor and travel
charges. Finally, the contractor will be requested to submit additional supporting travel
information with the travel summary documentation for future vouchers to include the travel
documentation used by the auditors. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202)-622-8500.




2
 Strengthened Management Processes Are Needed to Assure the Usefulness of Products and Services Received
Through the Infrastructure Shared Services Task Order (Reference Number 2006-20-063, dated March 2006).
                                                                                                           2
                     Voucher Audit of the Infrastructure Shared Services Task Order
                                     of Contract TIRNO-99-D-00001




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Questionable Contract Charges and Invoice Verification Process ...............Page 3
                    Recommendations 1 and 2: ................................................Page 6

          Contract Deliverables....................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measure ................................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 13
                   Voucher Audit of the Infrastructure Shared Services Task Order
                                   of Contract TIRNO-99-D-00001




                                              Background

In December 1998, the Internal Revenue Service (IRS) awarded task order contract1 number
TIRNO-99-D-00001. This contract was awarded to provide for the design and development of
an information system that allows the IRS to effectively and efficiently process tax return
information, provide customer service, and maintain accurate financial records. This effort,
referred to as Business Systems Modernization, is estimated to span 15 years and cost
approximately $8 billion.
This audit focused specifically on the Infrastructure Shared Services task order of the contract.
This task order was designed to provide support that encompassed the building and delivery of
the common, integrated, and shared infrastructure for the Business Systems Modernization
program. This cost-plus-fixed-fee2 task order was awarded in February 2004 and included a base
period of performance through November 2004 with two option periods. According to the IRS’
Request Tracking System,3 as of September 14, 2005, the IRS had approved approximately
$38 million in payments to the contractor for this task order.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration (TIGTA) made a commitment to perform audits of these
expenditures. This audit was designed to determine whether amounts paid by the IRS under this
task order were accurate, supported, and allowable through a review of contractor vouchers and
supporting documentation.
We conducted our audit concurrently with a second audit of the Infrastructure Shared Services
task order conducted by the TIGTA Office of Audit Information Systems Programs (ISP) staff.4
The overall objective of the ISP audit was to determine whether the IRS was receiving full value
from the contractor under the terms and conditions of the task order. We did not perform any
audit steps concerning the deliverables associated with this task order but do provide a brief
synopsis of the ISP audit results on page 6 of this report.



1
  A task order contract means a contract for services that does not procure or specify a firm quantity of services and
provides for the issuance of orders for the performance of tasks during the period of the contract.
2
  A cost-plus-fixed-fee acquisition provides for payment of allowable incurred costs, to the extent prescribed in the
contract, and payment of a negotiated fee that is fixed at the inception of the contract.
3
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic acceptance of items
delivered and provides an electronic interface with the Integrated Financial System (the IRS’ administrative
financial accounting system) for payment processing.
4
  Strengthened Management Processes Are Needed to Assure the Usefulness of Products and Services Received
Through the Infrastructure Shared Services Task Order (Reference Number 2006-20-063, dated March 2006).
                                                                                                              Page 1
                Voucher Audit of the Infrastructure Shared Services Task Order
                                of Contract TIRNO-99-D-00001



This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility in Falls Church, Virginia, during
the period September 2005 through February 2006. Opinions expressed in this report pertain
only to the vouchers included in our sample. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 2
                     Voucher Audit of the Infrastructure Shared Services Task Order
                                     of Contract TIRNO-99-D-00001




                                         Results of Review

Questionable Contract Charges and Invoice Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a judgmental sample of four vouchers
(see Appendix I for details). The 4 vouchers included in our sample were issued between
April 2004 and August 2005 and involved approximately $10.8 million in IRS payments. The
primary expenses claimed on the vouchers were contractor and subcontractor labor costs,
including associated indirect costs.

Questionable contract charges
Based on our audit tests, we identified questionable charges of $8,187.49 as shown in Table 1.
We provided details of these charges to the contractor and the IRS.
                             Table 1: Schedule of Questionable Charges
                                                                              Questionable
                                         Questioned Activity
                                                                               Charges
                             Unallowable Subcontractor Labor                      $4,496.26
                             Charges
                             Unallowable Inter-/Intra-Company Work                $1,611.25
                             Order (IWO) Labor Charges
                             Unallowable IWO Travel Charges (net)5                  $653.54
                             Unsupported IWO Travel Charges                       $1,360.88
                             Unsupported Contractor Travel Charges                       $31.25
                             Unallowable Indirect Costs and Fee                          $34.31
                             Total                                                $8,187.49
                            Source: TIGTA analysis of four vouchers submitted to the IRS.




5
    The reference to net signifies both positive and negative amounts were identified.
                                                                                                  Page 3
                   Voucher Audit of the Infrastructure Shared Services Task Order
                                   of Contract TIRNO-99-D-00001



A majority of the unallowable labor charges related to multiple instances in which the same labor
hours were billed twice. A majority of the unallowable travel charges related to costs that
exceeded Federal Government-established per diem rates. Finally, all of the unsupported travel
charges involved instances in which the contractor was either unable to provide supporting
documentation or the documentation provided did not support the full amount of the expense
claimed.
The Federal Acquisition Regulation (FAR)6 stipulates a contractor is responsible for accounting
for costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed were incurred. The FAR also provides that costs
shall be allowed to the extent they are reasonable, allocable, and allowable under the FAR. In
addition, the contract stipulates that the IRS shall reimburse the contractor for authorized actual
expenses incurred, up to the limit prescribed in the Federal Travel Regulation,7 which, among
other things, requires travelers to provide receipts for lodging and any authorized travel expenses
in excess of $75.

Invoice verification process
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). The COs have the authority to administer or terminate contracts and
make related determinations and findings. The COs are responsible for ensuring performance of
all necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual relationships.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment
tailored to meet the needs of each contract. The CO and the COTR are required to jointly review
all appointed duties.
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives Handbook was the primary guidance for the COTRs.8 Part IV of the Handbook
stated, in part, that the COTRs are responsible for reviewing and approving invoices and
vouchers on contracts. It also stated the COTRs will receive instructions regarding involvement
in the review and approval of invoices and vouchers from the CO. Only one of the four vouchers
included in our sample was subject to this guidance.



6
  48 C.F.R. pt 1-53 (2002).
7
  41 C.F.R. Chapter 301 (2005).
8
  Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
Contracting Officer’s Technical Representatives Handbook. The Circular also stated the Department of the
Treasury would no longer maintain the Handbook.
                                                                                                               Page 4
                Voucher Audit of the Infrastructure Shared Services Task Order
                                of Contract TIRNO-99-D-00001



On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document A Guide to Best Practices for Contract
Administration (the Guide). The Guide offers, as a practical technique, that the COTRs
reviewing vouchers under cost-reimbursement contracts should review, among other things,
contractor timecards to help assess the reasonableness of direct labor costs. The Guide also
contains directions to review major cost categories, such as travel, supplies, other direct costs,
and subcontractor costs, to again determine the reasonableness of the claimed costs.
The IRS has also issued specific guidance relative to the voucher review process for this
contract. Effective October 1, 2001, the IRS established a standard review process and audit
plan. In addition, effective November 4, 2005, the IRS Office of Modernization Acquisition
defined a comprehensive process for the receipt, review, and approval of vouchers under this
contract. As specifically stated in the October 2001 directive, and as can be inferred from the
November 2005 guidance that includes the same procedures, the IRS has based its voucher
review process “on the generally accepted practice of reliance on approved accounting and
billing systems as a basis for provisional payment of costs.”
While both IRS documents provide specific guidance regarding the voucher review process, the
process outlined is mainly a high-level review consisting of the following:
   •   Ensuring costs are commensurate with the task order.
   •   Checking for compliance with special contract terms and conditions.
   •   Verifying indirect billing rates.
   •   Verifying the criteria and computations for claiming interim fee payments.
   •   Verifying mathematical accuracy.
Discussions with IRS personnel, including the CO, COTR, and four Acquisition Project
Managers, confirmed this high-level review of the vouchers. Examples of review steps
performed by these personnel included checking mathematical accuracy, checking indirect and
fee rates, reviewing hours and funding, and checking travel for anomalies. While this type of
review may provide some level of assurance regarding reasonableness, it does not provide a
sound basis for verifying the allowability of costs claimed. We did not identify any type of
verification performed of actual hours worked, such as a review of time reports, or a detailed
review of travel expenses through verification of supporting receipts.
In conducting our audit, we did identify one contractor-produced report that may provide benefit
to the IRS in its review of contractor travel charges. This report provided details of the travel
expenses incurred, including the per diem rates used, by traveler and trip. While we observed
only one instance in which the contractor had included a copy of this report in supporting
documentation provided to the IRS, the contractor regularly provided this same report to us as
part of the documentation supporting travel charges.

                                                                                              Page 5
                Voucher Audit of the Infrastructure Shared Services Task Order
                                of Contract TIRNO-99-D-00001



We did not identify a significant amount of questionable charges on the vouchers we reviewed,
notwithstanding the incomplete voucher verification process described above. We will continue
to include a review of the IRS’ voucher verification process in future contract voucher audits
and, if warranted, recommend improvements to the process.

Recommendations
Recommendation 1: The Director, Procurement, should ensure the appropriate CO reviews
the identified questionable charges of $8,187.49 and initiates any recovery actions deemed
warranted.
       Management’s Response: IRS management agreed with our recommendation. The
       Office of Procurement will have the COTR document the audit findings and issue them to
       the contractor for a response. For those audit findings with which the contractor agrees,
       the COTR will deduct the unallowable amounts from current billings, or alternatively,
       establish a credit for the agreed-upon amounts. For those items that the contractor
       provides additional information, or disagrees with the audit findings, the COTR will
       assess the facts provided by the contractor, obtain input from the CO, and jointly
       determine the next course of action.
Recommendation 2: The Director, Procurement, should consider initiating the following
actions due to the identification of duplicate billing of labor hours and travel charges in excess of
per diem rates:
   •   Review a representative sample of previously submitted task order vouchers to determine
       whether any additional unallowable charges can be identified and recovered.
   •   Require the contractor to consistently provide travel summary documentation, as
       evidenced during this audit, with future vouchers to facilitate a more comprehensive
       review of those vouchers.
       Management’s Response: IRS management agreed with our recommendation. The
       Office of Procurement will review an additional voucher sample to determine the
       existence of questionable labor and travel charges. The COTR will document the
       findings and recover any amounts found unallowable and unsupported from the
       contractor. In addition, the contractor will be requested to submit additional supporting
       travel information with the travel summary documentation for future vouchers to include
       the same documentation the auditors used.

Contract Deliverables
The TIGTA Office of Audit ISP staff performed an audit of this contract’s deliverables; we did
not perform any audit steps concerning the deliverables associated with this task order. The
                                                                                              Page 6
                 Voucher Audit of the Infrastructure Shared Services Task Order
                                 of Contract TIRNO-99-D-00001



overall objective of the ISP audit was to determine whether the IRS was receiving full value
from the contractor under the terms and conditions of the task order. In a recently issued final
report, the ISP audit staff disclosed that the IRS did not receive the anticipated value for 7 of
27 work items and 2 of 11 special projects performed under this contract. The IRS could have
made more efficient use of resources valued at $310,863 represented by the 2 special projects.9




9
 Strengthened Management Processes Are Needed to Assure the Usefulness of Products and Services Received
Through the Infrastructure Shared Services Task Order (Reference Number 2006-20-063, dated March 2006).
                                                                                                     Page 7
                   Voucher Audit of the Infrastructure Shared Services Task Order
                                   of Contract TIRNO-99-D-00001



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected vouchers submitted and
paid under the Infrastructure Shared Services task order of contract TIRNO-99-D-00001 were
appropriate and in accordance with the contract’s terms and conditions. To accomplish this
objective, we:
I.      Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
        certifying payment to the contractor.
        A. Interviewed the Contracting Officer, Contracting Officer’s Technical Representative,
           and Acquisition Project Managers to confirm our understanding of the voucher
           verification process.
        B. Documented voucher processing risks including accuracy, supportability, and
           allowability of voucher charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           vouchers.
II.     Verified whether voucher charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Identified a sample selection universe from the recorded transactions in the IRS’
           Request Tracking System (RTS)1 as of September 14, 2005. As of this date, there
           were 37 transactions in the RTS, which corresponded with 18 vouchers received by
           the IRS. We judgmentally selected four vouchers for review. These 4 vouchers,
           which were issued between April 2004 and August 2005, involved approximately
           $10.8 million in IRS payments and represented approximately 28 percent of the total
           amount paid by the IRS. In considering the size and extent of contractor and
           subcontractor labor against audit resource limitations, we decided to further refine our
           sample by selecting a judgmental sample of employees within the contractor
           (87 of 342) and subcontractor (131 of 381) labor categories. In doing this, we
           selected approximately $613,000, or 33 percent, of contractor labor charges and


1
 The RTS is a web-based application that allows IRS personnel to prepare, approve, fund, and track requests for the
delivery of goods and services. The RTS also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.
                                                                                                           Page 8
                 Voucher Audit of the Infrastructure Shared Services Task Order
                                 of Contract TIRNO-99-D-00001



            approximately $2.2 million, or 39 percent, of subcontractor labor charges included on
            the 4 vouchers. We believed this sampling method would provide sufficient evidence
            to accomplish our audit objective and result in acceptable management corrective
            action without the need for precise projection of sample results.
            This audit did not include audit procedures to obtain evidence that
            computer-processed data, within the IRS’ RTS, was valid and reliable. Though used
            during this audit, the data in general was not considered significant to the audit’s
            objective or resultant findings. We only used the data within the RTS to reasonably
            identify the universe from which we selected our sample of transactions for
            substantive testing of their accuracy, supportability, and allowability. We only
            concluded and reported on those substantive tests. Therefore, there was no adverse
            effect on the audit as a result of not including reliability of computer-processed data
            audit procedures.
        B. Obtained supporting documentation for the vouchers in the sample from the IRS and
           the contractor and performed the following tests:
            1. Verified the mathematical accuracy of the vouchers and supporting
               documentation.
            2. Traced voucher charges to supporting documentation.
            3. Verified whether voucher charges were actually paid by the contractor through
               examination of payroll records and extracts from the contractor’s financial
               records.
            4. Verified whether voucher charges were allowable under the terms and conditions
               of the contract.
III.    Verified through interviews with responsible officials and reviews of project files
        whether there was acceptable existence of deliverables, as stipulated in the contract, for
        all tasks.
        A. This audit subobjective was performed by the Treasury Inspector General for Tax
           Administration Office of Audit Information Systems Programs staff. Detailed results
           have been reported under separate cover.2




2
 Strengthened Management Processes Are Needed to Assure the Usefulness of Products and Services Received
Through the Infrastructure Shared Services Task Order (Reference Number 2006-20-063, dated March 2006).
                                                                                                     Page 9
               Voucher Audit of the Infrastructure Shared Services Task Order
                               of Contract TIRNO-99-D-00001



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Thomas Dori, Senior Auditor
James Mills, Senior Auditor
Chinita Coates, Auditor




                                                                                      Page 10
              Voucher Audit of the Infrastructure Shared Services Task Order
                              of Contract TIRNO-99-D-00001



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                       Page 11
                     Voucher Audit of the Infrastructure Shared Services Task Order
                                     of Contract TIRNO-99-D-00001



                                                                                         Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Questioned Costs – Potential; $8,187.49 (see page 3).

Methodology Used to Measure the Reported Benefit:
We examined vouchers and supporting documentation obtained from the Internal Revenue
Service Office of Procurement, as well as documentation received directly from the contractor,
to verify charges for a judgmental sample of four vouchers. We selected our sample from a
universe of 18 vouchers. The 4 selected vouchers involved approximately $10.8 million in
Internal Revenue Service payments.
Our review resulted in the identification of questionable charges of $8,187.49. Specifically,
these charges consisted of $4,496.26 in unallowable subcontractor labor charges; $1,611.25 in
unallowable Inter-/Intra-Company Work Order (IWO) labor charges; $653.54 in net1
unallowable IWO travel charges; $1,360.88 in unsupported IWO travel charges; $31.25 in
unsupported contractor travel charges; and $34.31 in unallowable indirect costs and fee.




1
    The reference to net signifies both positive and negative amounts were identified.
                                                                                              Page 12
   Voucher Audit of the Infrastructure Shared Services Task Order
                   of Contract TIRNO-99-D-00001



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 13
Voucher Audit of the Infrastructure Shared Services Task Order
                of Contract TIRNO-99-D-00001




                                                         Page 14
Voucher Audit of the Infrastructure Shared Services Task Order
                of Contract TIRNO-99-D-00001




                                                         Page 15
Voucher Audit of the Infrastructure Shared Services Task Order
                of Contract TIRNO-99-D-00001




                                                         Page 16
